HHS/OIG-Audit--"Review of Medicare Credit Balances at Hospitals in South Carolina, (A-04-91-02015)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Credit Balances at Hospitals in South Carolina," (A-04-91-02015)
April 17, 1992
Complete
Text of Report is available in PDF format (1.73 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report discloses that Medicare accounts receivable credit balances included unidentified overpayments totaling
an estimated $1.3 million for 17 hospitals in South Carolina serviced by Blue Cross and Blue Shield of South Carolina as
the Medicare intermediary. The overpayments existed because neither the hospitals nor the intermediary reviewed credit
balances or processed adjustments timely. We recommended recovery of the overpayments and procedural improvements to ensure
that the hospitals and the intermediary perform more timely reviews.